HHS/OIG, Audit - "Review of Overpayment Collections by Aid to Families With Dependent Children (AFDC) by Nebraska Department of Health and Human Services System (HHSS)," (A-07-02-03013)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Overpayment Collections by Aid to Families With Dependent
Children (AFDC) by Nebraska Department of Health and Human Services System (HHSS),"
(A-07-02-03013)
December 30, 2002
Complete Text of Report is available in PDF format
(498 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Nebraska Department
of Health and Human Services System (HHSS) has continued to properly identify,
collect, and remit the federal share of AFDC overpayment collections to the
Federal Government after the AFDC program was repealed.  The HHSS made
only one payment for the federal share of AFDC overpayment collections made
between October 1, 1996 and December 31, 2001.  That payment totaled $21,654
and covered only the federal share of cash collections made in October and November
1996.  The federal share of benefit reductions applied by the state for
that period was not remitted.  No payments were made to the U.S. Department
of Health and Human Services, Administration for Children and Families (ACF)
for the federal share of overpayment collections since a new program, Temporary
Assistance for Needy Families (TANF), was implemented on December 1, 1996.
Instead, AFDC overpayment collections were incorrectly applied to the new program.
We estimated the federal share of AFDC overpayments that the HHSS may have collected
between October 1, 1996 and December 31, 2001 to be about $2 million.